OFFICE OF INSPECTOR GENERAL
               Audit Report

Audit of Unilateral Disability Freeze Determinations


                 Report No. 10-11
                 August 12, 2010




   RAILROAD RETIREMENT BOARD
                                                        TABLE OF CONTENTS

INTRODUCTION

 Background ............................................................................................................................................. 1 
 Audit Objectives ...................................................................................................................................... 3 
 Scope ....................................................................................................................................................... 3 
 Methodology ............................................................................................................................................ 3 

RESULTS OF AUDIT

 The RRB Has the Authority to Unilaterally Award Disability Freezes ............................................ 5 
 Circumstances Leading to Unilateral Freeze Determinations ......................................................... 6 
   Medical Assessment Disagreement of Condition .................................................................. 6 
   Vocational Disagreement ....................................................................................................... 6 
   Onset Date Disagreement ..................................................................................................... 7 
 Policy and Procedures Exist and Are Consistent for Different Types of Freezes ........................ 7 
 The RRB Bears the Cost for Unilateral Freeze Determinations ..................................................... 7 

 General Exception .................................................................................................................................. 8 
  Memorandum of Understanding Needs to be Updated ......................................................... 8

 Exceptions Identified During the Review of Unilateral Disability Freeze Decisions ..................... 9 
   Procedures Are Incomplete ................................................................................................... 9 
   Better Coordination with the SSA Could Help to Resolve Some Differences ...................... 10
    Differences in Opinion Involving Vocational Issues ................................................................................ 10 
       Major Differences in Medical Opinion on Severity of the Condition ..................................................... 11 
    RRB System Coding Errors Could Result in the RRB Bearing Unnecessary Costs............ 11

 Exceptions Identified During the Review of Non-Unilateral Disability Freeze Decisions .......... 13 
   Dual Eligibility Freeze Decision Coded as “Allow,” but Denied by the SSA ......................... 13 
   Denial Freeze Decision Had Inaccurate Statement on Claimant’s Letter ............................ 14

 Review of Long Island Rail Road Disability Freeze Decisions ...................................................... 15 

APPENDICES

 Appendix I  Definitions ......................................................................................................................... 16 
 Appendix II Testing Methodology and Results-Unilateral Freeze Decisions ............................. 19 
 Appendix III Circumstances Leading to Unilateral Freeze Determinations ................................ 21 
 Appendix IV Results of Unilateral Freeze Decision Review ......................................................... 22 
 Appendix V Testing Methodology and Results-Non-Unilateral Freeze Decisions .................... 23 
 Appendix VI Management’s Response ............................................................................................ 24 




                                                                              i
                                            INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of
unilateral disability freeze determinations at the Railroad Retirement Board (RRB).

Background

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and the Railroad Unemployment Insurance Act (RUIA). These programs
provide income protection during old age and in the event of disability, death, temporary
unemployment, or sickness.

An applicant filing for disability benefits submits their claim to the RRB’s Office of
Programs, which coordinates all claims processing operations.

The Office of Programs is responsible for processing both initial disability claims and
claimant requests for reconsideration after an initial denial. If the claim for disability
benefits is denied by the Office of Programs at both the initial and reconsideration
levels, the applicant may request an appeal through the RRB’s Bureau of Hearings and
Appeals (H&A). H&A reviews appeals and conducts hearings for individuals who
disagree with the Office of Program’s decisions reached in their cases. On occasion, a
claim may also be appealed to the RRB’s three-member Board.

Disability Freeze

Under the RRA, every application for a disability annuity is also an application under the
Social Security Act for a period of disability, commonly termed a "freeze." The freeze
portion of the Social Security Act protects disabled workers and their families against
the loss of, or the reduction in, benefits because of the worker’s disability. When a
freeze is established, the worker’s wage record is frozen and the period during which he
is disabled and not likely to have earnings, is excluded to the worker’s advantage when
determining the insured status and benefit amounts. 1 In fiscal years (FY) 2008 and
2009, the Office of Programs made 5,214 and 4,126 total disability freeze decisions,
respectively.

To be eligible for a disability freeze, the applicant must meet both a disability and an
earnings requirement. See Appendix I for definitions.




1
 The RRB uses the freeze provision to potentially increase the benefit amount, to make a portion of the
benefit taxable like a social security benefit, and to establish early Medicare. In survivor cases, the freeze
may produce higher monthly benefit rates that would otherwise not be payable.

                                                      1
A grant of a disability freeze is advantageous to the annuitant in that it:

   •   preserves the individual’s earnings record;
   •   provides that a portion of the annuity will be taxed in the same manner as a
       social security benefit;
   •   may increase the monthly annuity rate payable to the individual and their
       survivors;
   •   may allow dependents to be considered in the individual’s annuity payments; and
   •   may provide early Medicare coverage.

Without a disability freeze, the applicant may not be eligible for the benefits listed
above.

In general, the RRB’s Office of Programs makes freeze decisions jointly with the Social
Security Administration (SSA) when there is potential entitlement to social security
benefits. If, after attempts to resolve differences, a disagreement still exists between
the RRB and the SSA, the RRB’s Claims Examiners may decide to make an
independent determination to grant the freeze, referred to as a unilateral freeze
decision. The grant of a disability freeze by H&A or the three-member Board would also
be considered a unilateral freeze decision.

Although unilateral freeze decisions represent a relatively small portion of all disability
freezes granted by the RRB (as shown in the illustration below), this audit was
performed to answer questions raised about the RRB’s unilateral disability freeze
process after the press criticized the RRB’s decisions to grant disability benefits to some
Long Island Rail Road (LIRR) employees.

         CY 2008 Freeze Decisions Granted                   CY 2009 Freeze Decisions Granted



                                                                                      Unilateral Freeze
                                 Unilateral Freeze                              89    Decisions Granted
                                 Decisions Granted                             3.6%
          2,510            123                              2,411
          95.3%           4.7%                              96.4%                     Total Non-Unilateral
                                 Total Non-Unilateral                                 Freeze Decisions Granted
                                 Freeze Decisions Granted




This audit also supports the RRB’s mission to administer retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and their
families under the RRA and the RUIA, and the agency’s underlying objectives to pay
benefits to the right people, in the right amounts, in a timely manner, and to take
appropriate action to safeguard the customers’ trust funds.




                                                        2
Audit Objectives

The objectives of this audit were to determine the:

   •   statutory authority under which the RRB grants a period of disability (disability
       freeze);
   •   circumstances under which the freeze determination process results in a
       unilateral award;
   •   consistency of policies and procedure requirements that apply to single, joint and
       unilateral freeze awards; and
   •   impact of unilateral freeze decisions on the RRA trust funds.

Scope

The scope of the audit was limited to the agency’s disability freeze decisions from
January through September 2008. Our audit concentrated on unilateral disability freeze
awards granted by both the Office of Programs and H&A. It also included a limited
number of single, joint or dual, denial, termination, and LIRR freeze decisions to
determine if procedures were consistent among the types of decisions. We did not
review the process related to the initial grant of the disability annuity or the occupational
disability program as these were not the objectives of our audit. See Appendix I for
definitions.

Methodology

To accomplish our objectives, we:

   •   identified and reviewed the laws, policies, and procedures, applicable to disability
       freeze awards;
   •   reviewed the Memorandum of Understanding (MOU) between the SSA and the
       RRB related to granting disability freezes;
   •   interviewed responsible agency officials to obtain an understanding of the
       process for adjudicating freeze cases;
   •   performed a review of the entire universe of 79 unilateral freeze cases
       (decisions) awarded between January and September 2008 to:
          o verify the consistency of processing awards;
          o determine if the unilateral freeze decisions were properly authorized;
          o determine if appropriate documentation existed to validate the decision
            made;
          o determine the reasons why the RRB and the SSA disagreed on certain
            freeze decisions; and


                                              3
          o determine the impact of unilateral freeze decisions on the RRA’s trust
            funds. See Appendix II for the testing methodology and results for the test
            of unilateral disability freeze decisions.
   •   obtained overall statistics for freeze awards and denials for comparison
       purposes; and
   •   performed a review of a total of 22 (5 single, 5 joint or dual,5 denial, 2
       termination, and 5 LIRR) randomly selected non-unilateral disability freeze
       decisions to measure consistency in the application of processing decisions.
       See Appendix V for the testing methodology and results for the test of non-
       unilateral disability freeze decisions.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We conducted our fieldwork at the RRB’s headquarters in Chicago, Illinois from
January 2009 to August 2009 and obtained updated statistical data in April 2010.




                                            4
                                        RESULTS OF AUDIT

Our audit found that:

    •   the RRB has the authority to unilaterally award disability freezes;
    •   there were common circumstances leading to unilateral freeze determinations;
    •   procedures for unilateral freeze determinations were consistent with other types
        of freeze determinations; and
    •   generally, the RRB bears the cost of benefits awarded unilaterally. 2

However, the RRB’s MOU with the SSA was outdated, procedures for granting
unilateral freezes were not complete, coordination with the SSA needed improvement,
RRB system coding errors could result in the RRB bearing unnecessary costs, and
some controls needed strengthening.

The details of our findings and recommendations for corrective action follow. The full
text of Management’s response is included in this report as Appendix VI.

The RRB Has the Authority to Unilaterally Award Disability Freezes

Our audit disclosed that the RRA provides the RRB with the statutory authority to
determine a “period of disability” also known as a disability freeze.

In 1958, the RRA of 1937 was amended to provide the RRB with express authority to
render “disability freeze” determinations pursuant to the Social Security Act for railroad
employees. The Senate Report accompanying the 1958 amendments to the RRA
explained that the amendments were intended to facilitate and improve the
administration of the RRA by effecting changes that have been shown by the
experience of the RRB in administering the acts to be desirable. The Senate Report
further explained that the bill transferred to the RRB the authority to make disability
freeze determinations under the Social Security Act for career railroad workers, whose
benefits or whose survivors’ benefits under the RRA might be affected by such a
determination under the “overall social security minimum” provision, and would remedy
the situation in which the SSA was given the exclusive authority to make freeze
determinations for career railroad workers whose rights to benefits otherwise were
exclusively within the jurisdiction of the RRB. 3

Although the RRA of 1974 completely restructured the RRA of 1937, as amended, the
Senate Report accompanying the 1974 amendments explained that the powers and
duties of the RRB with regards to disability freeze determinations remained the same.
2
 The RRB bears the entire cost for decisions made at the initial and reconsideration levels, and a portion
of the cost for decisions made at the H&A and the three-member Board levels.
3
 The social security overall minimum guarantee is the amount of total family benefits which would be paid
under the Social Security Act if the employee’s railroad service had been covered by that act.

                                                    5
In 1987, the RRB entered into a MOU with the SSA. This MOU established an
agreement between the RRB and the SSA regarding the agencies’ responsibilities for
coordinating disability decisions under the relevant sections of the RRA and the Social
Security Act. According to this MOU, the decisions to be coordinated were those
involving career railroad workers and their dependents.

This MOU states that the SSA and the RRB agree that unilateral disability freeze cases
are defined as disability claims reversed as a result of the RRB appeals process that
were initially denied by either RRB or jointly with the SSA; or those where RRB makes
an independent decision.

The MOU further states that if, after coordination of joint eligibility cases, a
disagreement still exists between the RRB and the SSA, the RRB may decide to make
an independent determination (unilateral decision). In this situation, it is stated that the
RRB will formally advise the SSA of its decision, including any additional evidence
and/or supporting rationale it may choose to provide.

Circumstances Leading to Unilateral Freeze Determinations

Our review of the 79 unilateral freeze decisions revealed that there were 3 common
circumstances leading to unilateral freeze determinations. These circumstances are
outlined below. See Appendix III for additional detail.

Medical Assessment Disagreement of Condition

The medical assessment is based on the physical and/or mental limitations of the
claimant in a work setting.

A conflict based on the medical assessment occurs when the SSA and the RRB have
differing opinions on the severity of the claimant’s condition. If the RRB Claims
Examiner determines that there is a medically determinable severe impairment, but the
Social Security (SS) Listing of Impairments (also referred to as “the Listing”) is not met
or equaled, a Residual Functional Capacity (RFC) assessment is made. In an RFC
assessment, symptoms are considered in terms of any additional functional limitations
they impose beyond those clearly demonstrated by the objective medical finding alone.
If the claimant has several impairments, the RRB Claims Examiners will consider all of
his or her impairments. See Appendix I for definitions of RFC and SS Listing of
Impairments.

Vocational Disagreement

A vocational disagreement occurs when the SSA and the RRB have differing opinions
on the duties that were required for the applicant’s prior vocation. Non-medical factors
(e.g., age, education, and work experience) are considered when determining the ability
of the claimant to perform any regular work. A claimant’s vocational background is


                                              6
considered along with his or her RFC in arriving at a disability decision. The RFC is
determined before the vocational factors are considered. Then the interaction of the
RFC with the other factors affecting vocational adaptability, as stated above, are
analyzed. Other considerations may be descriptions by the contacting officials (such as
field office representatives) or the person himself concerning his or her appearance,
conduct at the interview, work limitations, etc.

Onset Date Disagreement

An onset date disagreement occurs when the SSA and RRB disagree on the date the
disability started. For example, in one case (decision), the RRB determined that the
claimant was “disabled” for the purposes of a freeze earlier than the SSA, based on the
medical evidence in the file.

Policy and Procedures Exist and Are Consistent for Different Types of Freezes

We also found that policies and procedures exist for granting unilateral freezes and that
the procedures for processing unilateral freeze cases are similar, if not identical, to the
procedures for single, joint or dual, LIRR, denial, and termination freeze decisions. The
only difference we found is that all unilateral decisions made at the initial level (not the
reconsideration level or by H&A) must be approved by a supervisory or senior disability
claims examiner in the Office of Programs.

The RRB Bears the Cost for Unilateral Freeze Determinations

Our audit found that unilateral freeze determinations made at the initial and
reconsideration levels result in the RRB bearing the entire cost of benefits granted.

When the SSA concurs with the RRB’s decision to grant a freeze, some or all of the
benefits awarded are considered social security equivalents. Normally, through the
Financial Interchange (FI), the Social Security trust funds bear the cost for any benefits
awarded under the RRA if the benefits are considered Social Security equivalents. See
Appendix I for a definition of the Financial Interchange.

When the SSA does not concur, as is the case in the RRB’s unilateral freeze
determinations, none of the benefits are considered Social Security equivalents and, as
a result, the Railroad Retirement program bears the entire cost.




                                             7
General Exception

Our review of the policies and procedures related to disability freeze decisions identified
the following general exception.

Memorandum of Understanding Needs to be Updated

The MOU between the RRB and the SSA needs to be updated. Our audit found that
the MOU had not been modified since 1987 and that some aspects of the coordination
process for disability freezes outlined in the MOU did not match current procedures.
For example, although the MOU states that the “RRB will formally advise the SSA of its
(unilateral freeze) decision…,” the RRB had no procedure in place to do so and had not
been notifying the SSA of the RRB’s unilateral freeze decisions at the time of our audit.
The SSA OIG also raised the issue of the outdated MOU in a May 2009 evaluation
report entitled “Processing of Railroad Worker Disability Claims.”

According to the U.S. Government Accountability Office (GAO) Internal Control
Standards, transactions [documentation] should be promptly recorded to maintain their
relevance and value to management in controlling operations and making decisions.

During the audit, the RRB added a procedure to notify the SSA by e-mail when they
make a unilateral freeze decision. However, no changes were made to the MOU. RRB
personnel did not have a specific reason as to why the MOU had not been revised.
Lack of coordination and communication between the RRB and SSA and outdated
procedures may result in additional unilateral freeze awards being granted by the RRB.
Also, there is a risk that other issues in need of correction may not be detected.

Recommendation

We recommend that the Office of Programs:

   1. work with the SSA to review and update the MOU between the agencies.

Management’s Response

The Office of Programs concurred with this recommendation and has advised us that
the RRB started the process to update the MOU with the SSA in April 2009 and an
updated version was sent to the Board on April 30, 2010. They expect it to be
completed by December 31, 2010.




                                             8
Exceptions Identified During the Review of Unilateral Disability Freeze Decisions

The following sections outline the internal control issues we identified as a result of our
review of the unilateral disability freeze decisions. Of the 79 cases reviewed, we
identified 28 decisions that had exceptions. See Appendix IV for specific results.

Procedures Are Incomplete

Agency procedures for handling unilateral freeze determinations were not complete.

According to the GAO Internal Control Standards all transactions and other significant
events [including procedures] need to be clearly documented and the documentation
should be readily available for examination. The documentation should appear in
management directives, administrative policies, or operating manuals. All
documentation should be properly managed and maintained. PRISM, the agency’s
online procedural manual, indicates that the adjudication manuals in PRISM should
make up the single authorized means for issuing official written program policy and
operating instructions in the RRB.

We found that the procedures contained in the Disability Claims Manuals in PRISM
were not comprehensive in that they did not always reflect the RRB’s practices for
handling unilateral freeze determinations. In addition, the procedures lacked details on
authorizations and support that should be included in case folders. For example:

   •   During our review of the 79 unilateral freeze determinations awarded from
       January to September 2008, we found that, although the Disability Claims
       Manuals contained in PRISM said that all unilateral decisions must be approved
       by a supervisory or senior disability claims examiner, 9 decisions did not show
       this approval. All nine decisions involved an onset date conflict between the SSA
       and RRB of exactly one month. The conflict results from a difference in how the
       RRB and the SSA treat age attainment. See Appendix IV for detailed findings.

RRB staff advised us that based on agency practices, these cases (decisions) do not
require approval by a supervisory or senior disability claims examiner. However, there
is no written procedure for when a lead examiner’s approval is or is not required. These
decisions were coded in the system as unilateral decisions. Therefore, we take
exception to the lack of approvals for these nine cases based on the procedures
outlined in PRISM.




                                             9
We then performed a further review on the Disability Claims Manuals in PRISM and
found them to be difficult to follow and incomplete with regards to disability claims
processing. When we inquired as to why this might be, the Office of Programs staff
advised us that the Disability Unit has relied on informal communications, such as e-
mails and in-house training documents instead of updating the formal written
procedures in PRISM. They have also relied on the knowledge and experience of
supervisors and the two Senior Disability Examiners who approve unilateral freeze
determinations.

The lack of comprehensive updated procedures increases the risk of inconsistent or
improper handling of unilateral freeze cases.

Recommendation

We recommend that the Office of Programs:

   2. update the procedures in the Disability Claims Manuals in PRISM to ensure that
      unilateral freeze procedures are current, comprehensive, and provide sufficient
      detail to facilitate consistent handling.

Management’s Response

The Office of Programs concurred with this recommendation and has advised us that
they are currently in the process of updating the Disability Claims Manuals which will
include the recommended changes. They expect to complete that process by
December 31, 2011.


Better Coordination with the SSA Could Help to Resolve Some Differences

During our audit, we found that better coordination with the SSA in some areas might
help to resolve some differences, thereby reducing the number of unilateral freeze
determinations. According to PRISM, the agency’s online procedural manual, initial
joint decisions made by either the SSA or the RRB are binding, and all decisions should
be coordinated between the two agencies.

As described previously, the RRB has the authority to make unilateral freeze
determinations if differences in opinion with the SSA cannot be resolved. However,
there are certain areas of disagreement that might benefit from improved
communication and coordination with the SSA prior to a unilateral freeze determination.
For example:

Differences in Opinion Involving Vocational Issues

Our audit found that 11 of the 79 decisions indicated a difference of opinion between the
SSA’s claims examiners and the RRB’s claims examiners involving vocational issues,


                                           10
such as which job descriptions to use and what weight, if any, to give to the applicant’s
description of the job versus the published description. The Office of Programs advised
us that vocational differences occur because the job as described by the claimant is
interpreted differently between the RRB and the SSA examiners. Both agencies use
the Dictionary of Occupational Titles (D.O.T.), which has not been updated more than
20 years; therefore, certain jobs are not easily identifiable in the D.O.T.

Major Differences in Medical Opinion on Severity of the Condition

Our audit found that 5 of 79 decisions indicated that there was a major difference in the
medical opinions of the SSA and RRB doctors and there was no apparent attempt to
reconcile the differences. RRB personnel informed us that they would only question the
SSA’s doctors if there was additional medical evidence that was submitted later, if there
was medical evidence that was inadvertently missed during the initial review, or if there
was an obvious error. A joint freeze allowance is preferred over a unilateral because
the RRB receives a partial cost recovery from the SSA’s Disability Insurance Trust Fund
(through the FI) when a joint freeze is granted. Conversely, RRB would bear the entire
cost of unilateral decisions. See Appendix IV for detailed findings.

RRB advised us that they have an interagency work group with the SSA that meets
regularly to discuss common issues.

Recommendation

We recommend that the Office of Programs:

   3. establish procedures for addressing differences with SSA regarding vocational
      issues and medical opinions in joint freeze cases.

Management’s Response

The Office of Programs agreed that the process for addressing differences between the
RRB and the SSA needs to be evaluated and has advised us that they plan to revisit
this issue after the new MOU is finalized. They expect to complete their work in this
area by December 31, 2011.


RRB System Coding Errors Could Result in the RRB Bearing Unnecessary Costs

Our audit found three cases (decisions) that were erroneously coded in the system as
unilateral freeze cases. See Appendix IV.

According to GAO, Application Control is designed to help ensure completeness,
accuracy, authorization, and validity of all transactions during application processing.
Control should be installed at an application’s interfaces with other systems to ensure



                                            11
that all inputs are received and are valid and outputs are correct and properly
distributed.

The three decisions identified should all have been coded as joint freeze decisions. The
SSA agreed with the disability freeze for a later onset date than what RRB believed it
should be. The decisions were initially correctly coded as a unilateral freeze, but should
have been switched to a joint freeze once the SSA’s onset date was reached.
Management indicated that the RRB systems do not automatically update to reflect a
freeze change, and there are currently not any procedures or mechanisms to change
the code when a disability freeze decision changes. Currently, freeze changes need to
be manually entered to overlay the prior decision.

To ensure that the RRB receives the accurate amount of funds that it is entitled to
through the FI, each decision needs to be coded correctly. Decisions coded as
unilateral freezes at the initial and reconsideration levels are paid solely by the RRB,
while the expense for joint freeze decisions is shared between the SSA and the RRB.
The Bureau of Actuary verifies the codes for all FI sample cases. However, the errors
noted above involve cases that were not included in the FI sample; therefore, were not
reviewed. If these cases would have been part of the FI sample, the Bureau of Actuary
would have had to manually identify and change the coding appropriately to ensure the
accurate amount of funds were transferred.

Therefore, there is an increased risk that the RRB may not be receiving all the funds
that it is entitled to through the FI because cases coded incorrectly need to be manually
identified and the coding changed.

Recommendations

We recommend that the Office of Programs:

   4. correct the coding for decisions noted above to indicate a joint freeze; and

   5. develop a mechanism and procedures to update the unilateral freeze codes in
      the Payment Rate and Entitlement History (PREH) system when the RRB
      obtains new information that changes the status of the freeze.

Management’s Response

In response to recommendation 4, the Office of Programs has advised us that they have
reviewed the 3 cases identified by the audit and has agreed to do further analysis of
these cases in conjunction with recommendation 5 to determine the best course of
action for handling cases of this type. They expect to complete this effort by
December 31, 2011.

In response to recommendation 5, the Office of Programs has agreed to investigate
cases in which the type of freeze changes after the initial decision is made and to

                                            12
determine the best course of action for handling such cases. They expect to complete
this effort by December 31, 2011.


Exceptions Identified During the Review of Non-Unilateral Disability Freeze
Decisions

Our review of five single, five joint or dual, five denial, and two termination disability
freeze decisions revealed that they were consistently handled when compared to
unilateral freeze decisions. However, our review identified two exceptions related to
internal controls. The details of these exceptions are outlined in the following sections.
See Appendix V for our sampling methodology.


Dual Eligibility Freeze Decision Coded as “Allow,” but Denied by the SSA

One decision we reviewed was denied by the SSA, but coded the same as decisions
where the SSA agreed with the period of disability. GAO’s Internal Control Standards
state that application controls should be designed to help ensure completeness,
accuracy, authorization, and validity of all transactions during application processing.
Since the applicant in this decision applied at both the SSA and the RRB, the case is
considered a dual eligibility freeze case. RRB systems do not have a way to
differentiate between joint, dual, or single freeze cases. This may impact the amount
transferred between the SSA and the RRB through the FI. With an incorrect code of
“allow,” the SSA could have erroneously paid for a portion of the benefit even though
they denied the case.

The proper handling of this decision cannot be determined because the MOU allows
independent determinations but does not give specific guidance on how the decision
should be coded for the FI.

Recommendation

We recommend that the Office of Programs:

   6. develop a programming or procedural change to identify cases involving dual
      eligibility where both RRB and the SSA agree to the period of disability, and
      when the SSA denies the period of disability.

Management’s Response

The Office of Programs has agreed to investigate the types of cases identified by the
audit to determine the best course of action for handling such cases. They expect to
complete this effort by December 31, 2011.




                                            13
Denial Freeze Decision Had Inaccurate Statement on Claimant’s Letter

In one folder, we found an inaccurate statement in the denial letter sent to the claimant.
The denial letter erroneously stated that the denial was based on the fact that the
medical condition did not meet the SSA’s definition for the disability when in fact the
denial was based on earnings, not on the medical condition. GAO’s Internal Control
Standards state that transactions should be promptly recorded to maintain their
relevance and value to management in controlling operations and making decisions.
Control activities help to ensure that all transactions are completely and accurately
recorded. The inaccurate statement in the denial letter was an oversight by Office of
Programs personnel. The denial was proper. However, we brought this issue to
management’s attention because we believe that the inaccurate statement might have
confused the claimant and because we believe that a better review process would help
to prevent similar occurrences from happening in the future.

Recommendation

We recommend that the Office of Programs:

   7. develop a procedure to review letters before they are sent to the claimants.

Management’s Response

The Office of Programs has agreed to investigate the cause of this situation and
determine the appropriate course of action by September 30, 2010.




                                            14
Review of Long Island Rail Road Disability Freeze Decisions

Our review of the five LIRR decisions revealed that all five decisions were handled
consistently when compared to all other types of disability freeze decisions reviewed
and it does not appear that LIRR employees had more unilateral freezes granted when
compared to the overall RRB employee population. Overall, 66% of disability freeze
claims submitted were granted, while only 34% of LIRR disability freeze claims
submitted were granted. Of the 1664 disability freezes granted, 79 (4.7%) were
unilaterals, while 2 (4.2%) of 48 LIRR disability freezes granted were unilaterals. See
illustration below for details.

                                                            No
                                    Grants    Denials     Decision   Terminations   TOTAL
Overall Freeze Decisions (January
through September 2008)              1664          433      405           6         2508
                                    66.3%         17.3%    16.1%        0.2%

LIRR Freeze Decisions (January
through September 2008)               48            85       9            0          142
                                    33.8%         59.9%    6.3%         0.0%

                                             LIRR         TOTAL
Unilaterals Granted                            2            79
Overall Freeze Decisions Granted              48           1664
                                             4.2%          4.7%




                                             15
                                                                                          Appendix I

                                              Definitions

Disability and Earnings Requirements Defined

The Disability Requirement – A worker must have a permanent medical condition that
prevents the worker from performing ANY substantial gainful work. 4

Another way to meet this requirement is for the worker to be at least 55 and unable,
because of blindness, to perform substantial gainful work that they used to do with
some regularity over a period of time.

The Earnings Requirement – A worker must meet ONE of the following:

    1. If the worker’s disability began at age 31 or later, they need to meet two
       provisions. First, they must have earned railroad retirement or social security
       work credits for each year after the later of 1950 or age 21 up to the year severe
       disability began. Second, unless they are at least 55 and meet the definition of
       blindness, they must have earned credit for 20 calendar quarters of railroad
       retirement or social security work during a 40 quarter period ending in or after the
       quarter in which severe disability began.
    2. If the worker was previously entitled to a period of disability which began before
       age 31, they must have earned railroad retirement or social security work credits
       for half of the calendar quarters between the first quarter after age 21 and the
       quarter in which the current severe disability began (excluding the prior period(s)
       of disability).
    3. If the worker’s disability began between ages 24 and 31, they must have earned
       railroad retirement or social security work credits for half of the calendar quarters
       between the first quarter after age 21 and the quarter in which severe disability
       began.


Types of Disability Freeze Decisions Defined

Unilateral Disability Freeze Cases

SSA and RRB agree that unilateral disability freeze cases are defined as disability
claims reversed as a result of the RRB appeals process that were initially denied by
either RRB or jointly with SSA, or those where RRB makes an independent decision.



4
 A permanent medical condition means that the condition has lasted, or is expected to last, for 12
consecutive months. Substantial gainful work is any work generally done for pay or profit, involving the
performance of significant physical or mental duties.

                                                    16
                                                                             Appendix I



Single Disability Freeze Cases – Single disability freeze decisions are made solely by
the RRB in cases not requiring a joint decision with the SSA. Single freeze cases
involve disabled career railroad employees who do not have actual or potential
entitlement to social security benefits.

Joint Eligibility Freeze Cases – Joint disability freeze decisions by the RRB and the SSA
are made for career railroad employees when there is potential entitlement to social
security benefits. A joint decision is made when a disability annuity is granted by the
RRB and one or more of the following conditions exist:

   1.     The employee does not have a current connection with the railroad industry;
   2.     The employee has sufficient earnings to be eligible for a retirement benefit
          from the SSA; or
   3.     The case is included in the Financial Interchange (FI) sample. (See Definition
          Below.)

Joint disability freeze decisions are not required by law or regulation, but are the results
of interagency policy formed in September 1958 to protect certain railroad employees
and their families against the possible adverse effect of independent and/or conflicting
disability freeze decisions made by two agencies based on the same provisions of law.
Joint decisions also eliminate any potential administrative problems for both agencies
due to uncoordinated decisions. All joint disability freeze decisions are coordinated with
the SSA by claims examiners in the RRB’s Office of Programs.

Dual Eligibility Freeze Cases – Dual disability freeze cases are processed with a “dual”
decision, from both the SSA and the RRB. RRB prepares and signs the railroad
disability determinations for career railroad workers or their dependents and the SSA
prepares and signs the social security determinations for the same claimants. The RRB
and the SSA decisions are coordinated to prevent different decisions from being
effectuated. Dual eligibility cases are insured jointly from the SSA and the RRB trust
funds.

Other Terms Defined

Financial Interchange (FI) – In 1951, Congress enacted amendments that increased
benefit levels under the RRA. This legislation guaranteed that benefits paid under the
RRA would never be less than what would have been payable if the worker’s railroad
earnings had been credited as Social Security employment instead of RRA covered
compensation. As part of that same legislative package, Congress established the FI
between the SSA and Railroad Retirement systems as an additional funding source.
The FI is one of the major funding sources that supports the RRA trust fund. For 2009,
the FI accounted for approximately 43% of the total financing sources (excluding
transfers and the decrease in investments).




                                             17
                                                                            Appendix I



The FI is a collective term that describes a series of legally mandated periodic fund
transfers between the RRB and the SSA, the RRB and Centers for Medicare and
Medicaid Services (CMS), and between the RRB and the Treasury. The amounts
transferred are the result of a complex statistical projection based on the scenario “what
if the RRA had never been enacted.”

FI amounts are computed by the Bureau of the Actuary using statistical methods
including large samples of RRB beneficiaries and currently employed railroad workers.
All calculations are performed under the provisions of the Social Security Act.

Residual Functional Capacity (RFC) – The claimant’s impairment(s) may cause physical
and mental limitations that affect what the claimant can do in a work setting. RFC is
what the claimant can do despite his or her limitations. RFC is a medical assessment of
a person’s maximum sustained capability for work.

Social Security (SS) Listing of Impairments (Listing) – The SS Listing of Impairments is
a listing which contains examples of medical conditions which generally prevent an
individual from engaging in substantial gainful activity.

An impairment “meets” the Listing only when it manifests the specific findings described
in the set of medical criteria for that listed impairment.

To determine if an impairment or combination of impairments “equals” the Listing a
comparison must be made of the medical findings (the set of symptoms, signs, and
laboratory findings) in the claimant’s medical evidence and the medical findings
specified for the listed impairment most like the claimant’s impairment(s). The
claimant’s impairment(s) can be considered “equal” to the Listing only if the medical
findings are at least equivalent in severity to those specified in the Listing.




                                            18
                                                                            Appendix II

                      TESTING METHODOLOGY AND RESULTS

                         Unilateral Disability Freeze Decisions

We performed non-sampling tests (100% review) of unilateral disability freeze
decisions.

Audit Objective

The objective of our test was to determine if the unilateral disability freeze awards
(decisions) were processed consistently with applicable laws, policies, and procedures.

Scope

We reviewed every unilateral disability freeze granted from January through September
2008. A total of 79 unilateral disability freezes were granted within the scope of our
review.

Review Methodology

For each of the unilateral disability award decisions, we reviewed the award document
and other evidence contained in the claim files to verify the consistency of processing
unilateral disability freeze decisions; to determine if the unilateral freeze decisions were
properly authorized; to determine if there was adequate documentation in the file to
validate the unilateral decision made; to determine the reasons why the RRB and the
SSA disagreed on the freeze decision; (resulting in the RRB’s unilateral freeze decision)
and to determine the impact of unilateral freeze decisions on the RRA’s trust funds.

An exception was defined as a unilateral disability freeze decision that was not
authorized by a supervisory or senior disability claims examiner; a case where there
was not adequate documentation in the claims file to justify a unilateral decision; a
decision where better coordination with the SSA might have helped to resolve some
differences; and cases that were coded improperly leading to the RRB possibly bearing
unnecessary costs.

Results of Non-Sampling Tests

Our review of the 79 unilateral disability freeze decisions determined that unilateral
disability freeze decisions were handled consistently with applicable laws and that
appropriate documentation existed to validate the decision made. In addition, we
determined that there were three common circumstances leading to unilateral freeze
determinations. The three circumstances are medical assessment disagreement, onset
date disagreement, and vocational disagreement. See Appendix III for the breakout of



                                             19
                                                                           Appendix II



the circumstances identified. Lastly, we determined that in general, the RRB bears the
cost of benefits awarded unilaterally.

However, our review also identified 28 exceptions related to the 79 case files reviewed.
These 28 exceptions were related to lack of documentation for unilateral authorizations;
differences in opinion between the RRB and the SSA that could have been resolved
with better coordination, and coding errors that could result in the RRB bearing
unnecessary costs. See the chart in Appendix IV for a breakout of the exceptions
identified.

Audit Conclusion

Overall, unilateral disability freeze awards (decisions) were processed consistently with
applicable laws. However, policies, procedures, and controls related to the
authorization for unilateral freeze decisions, coordination with the SSA, and the coding
of disability freeze decisions needed improvement. The details of our findings and
recommendations are outlined in the body of this report.




                                            20
                                                                        Appendix III

            Circumstances Leading to Unilateral Freeze Determinations

Of the 79 unilateral decisions we reviewed, 51 decisions (65%) resulted from a medical
assessment disagreement of the disability between the SSA and the RRB, 15 decisions
(19%) resulted from a disagreement in the onset date of the disability, 5 decisions (6%)
resulted from a disagreement on the vocational assessment of the claimant, and 8
decisions (10%) had more than one circumstance that led to the disagreement.




                                           21
                                                                                        APPENDIX IV

                    Results of Unilateral Freeze Decision Review

Of the 79 unilateral freeze cases awarded between January and September 2008, we
identified a total of 28 decisions with exceptions. See the following table for a
breakdown of the exceptions identified.




                                                                                     No. of Non-
                                                                                     Exceptions


                                                                                                   Exceptions




                                                                                                                   Comments
                                                                        No. Tested




                                                                                                     No. of




                                                                                                                     Misc.
     Test                         Issue Identified


Consistency of                         No authorization in folder       79             70             9
 Processing
                  Procedures are
     and
                    Incomplete
 Appropriate
Documentation
                                       Vocational issues - Difference   79             70             9
                                       of opinion between the SSA
                                       and CEL (e.g., which job
                 Better
                                       descriptions to use, what
                 Coordination
                                       weight to give to the
                 with the SSA
                                       applicant’s description of the
                 Could Help to
                                       job, etc.)
                 Resolve Some
                                       Vocational issue, consistency    79             78             1           Also a
                 Differences –
 Reasons for                           used in the rationale and an                                             consistency
                 Differences In
Disagreement                           exception for inadequate                                                    issue
                 Opinion Involving
 with the SSA/                         support in the folder
                 Vocational Issues
Circumstances                          Vocational issue and             79             78             1           Also a
  Leading to                           consistency used in the                                                  consistency
   Unilateral                          rationale                                                                   issue
   Decision                            Subtotal                                                     11
                 Better                Major difference in Medical      79             76           3
                 Coordination          Opinions Unresolved
                 with the SSA          Major difference in Medical      79             77             2           Also a
                 Could Help to         Opinions Unresolved &                                                    consistency
                 Resolve Some          Consistency used as part of                                                 issue
                 Differences –         Rationale
                 Major Difference in   Subtotal                                                       5
                 Medical Opinion
                    RRB System         System Coding Error (FI) -       79             76             3
  Impact of
                  Coding Errors        Onset Date
  Unilateral
                  Could Result in
 Decisions on
                 the RRB Bearing
the RRA Trust
                   Unnecessary
    Funds
                       Costs
                                       TOTALS                           79             51           28



                                              22
                                                                               Appendix V

                       TESTING METHODOLOGY AND RESULTS

                      Non-Unilateral Disability Freeze Decisions

We used non-statistical sampling test to measure the consistency of processing non-
unilateral (single, joint or dual, denial, termination and LIRR) disability freeze decisions.

Audit Objective

The objective of our test was to determine if the procedures for processing non-
unilateral disability freeze decisions were consistent with the procedures for processing
unilateral disability freeze decisions.

Scope

Using the RRB Master Benefit File, we identified 10,154 disability records that were
awarded to employees between January and September 2008. We then judgmentally
selected a total of 22 (5 single, 5 joint or dual, 5 denial, 5 LIRR, and 2 termination) non-
unilateral disability freeze decisions made during that same time period to review.

Review Methodology

For each of the 22 non-unilateral disability freeze decisions, we reviewed the award
document and other evidence contained in the claim file to verify the consistency of
processing between the different types of non-unilateral disability freeze decisions and
to determine if procedures were consistent with unilateral disability freeze decisions.

Results

We found no exceptions related to the consistency of processing non-unilateral
disability freeze decisions.

Audit Conclusion

Overall, procedures for processing non-unilateral disability freeze decisions were
consistent with the procedures for processing unilateral disability freeze decisions.
However, two controls needed improvement. The details of our findings and
recommendations are outlined in the body of this report.




                                              23
                                                                                Appendix VI




                                                                                      .·ORM   C~1I5f( 1-n)
                          UNITED STATES
                          GOVERNMENT                               RAILROAD RETIREMENT BOARD

                          MEMORANDUM
                                                                     AUG 1 0 2010
TO:
                  Diana Kruel

                      Assistant Inspector Ge~or ~Udit


FROM:
                Catherine A. LeYSer{~1Ul.- d ~~
                     ,Director of Assessment and Training                        /


THROUGH:
             Dorothy Isherwood 'k.-7-e~"U-'UV7)-tI1.~

                      Director of Programs


SUBJECT:
             Draft Report - Audit of Unilateral Disability Freeze

                      Determinations


                   Audit of Unilateral Disability Freeze Determinations



Recom mendation    We recommend that the Office of Programs work with the SSA to review and
I                  update the MOU between the agencies.


Office of	         We concur. The RRB started this process in April 2009 and an updated
Programs           version of the MOU was sent to the Board on April 30,2010. We expect it to
Response           be completed by December 31, 2010.


Recom mendation	   We recommend that the Office of Programs update the procedures in the
2	                 Disability Claims Manuals in PRISM to ensure that unilateral freeze
                   procedures are current, comprehensive, and provide sufficient detail to
                   facilitate consistent handling.

                                                                            Continued on next page




                                               24
                                                                                  Appendix VI




Draft Report - Audit of Unilateral Disability Freeze
Determinations, Continued



Office of         We concur. We are currently in the process of updating the Disability Claims
Programs          Manuals which will include the recommended changes. We expect to
Response          complete that process December 31, 2011.


Recommendati.on   We recommend that the Office of Programs establish procedures for
3                 addressing differences with SSA regarding vocational issues and medical
                  opinions in joint freeze cases.



Office of         We agree that the process for addressing differences between RRBand SSA
Programs          needs to be evaluated and we plan to revisit this issue after the MOU is
Response          finalized. We expect to complete our work in this area by December 31,
                  2011.


Recom mendation   We recommend that the Office of Programs correct the coding for decisions
4                 noted above to indicate a joint freeze.




Office of         We reviewed the 3 cases identified by the audit. We will do further analysis
Programs          of these cases in conjunction with recommendation 5 to determine the best
Response          course of action for handling cases.of this type. We expect to complete this
                  effort by December 31, 2011.

                                                                             ('onlinued on next page




                                               25
                                                                                     Appendix VI




Draft Report - Audit of Unilateral Disability Freeze
Determinations, Continued


Recommendation	    We recommend that the Office of Programs develop a mechanism and
5                  procedures to update the unilateral freeze codes in the Payment Rate and
                   Entitlement History (PREH) system when the RRB obtains new information
                   that changes the status of the freeze.


Office of	         We will investigate cases in which the type of freeze changes after the initial
Programs           decision is made to determine the best course of action for handling such
Response           cases. We expect to complete this effort by December 31, 2011.


Recom mendation	   We recommend that the Office of Programs develop a programming or
6	                 procedural change to identify cases involVing dual eligibility where both RRB
                   and the SSA agree to the period of disability, and when the SSA denies the
                   period of disability.


Office of          We will investigate the types of cases identified by the audit to determine the
Programs           best course of action for handling such cases. We expect to complete this
Response           effort by December 31! 2011.


Recommendation     We recommend that the Office of Programs develop a procedure to review
7                  letters before they are sent to the claimants.


Office of	         We will investigate the cause of this situation and determine an appropriate
Programs           course of action by September 30, 2010.
Response




cc:	          Chief Actuary
              Director of Policy and Systems
              Director of Operations
              Chief Information Officer




                                                26
